LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

February 24, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

KEALII MAKEKAU, ET AL. V. THE STATE OF HAWAII, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioners, on February
24, 2020, I caused service to be made pursuant to Rule 29 on the following counsel for
the Respondents:
RESPONDENTS Robert K. Lindsey Jr.,
Colette Y. Machado, Peter Apo, Haunani
Apoliona, Rowena M.N. Akana, John D.
Waihe'e IV, Carmen Hulu Lindsey, Dan
Ahuna, Leina'ala Ahu Isa,
Kamana'opono Crabbe, and the Na‘i
Aupuni Foundation:
Jordan K. Inafuku, Esquire
McCorriston Miller Mukai MacKinnon LLP
500 Ala Moana Boulevard
Five Waterfront Plaza, 4th Floor
Honolulu, HI 96813
808-529-7300
RESPONDENT The Akamai Foundation: jinafuku@m4law.com
Natasha Lynn Napua Baldauf, Esquire
Sullivan Meheula Lee, LLLP
733 Bishop Street
Suite 2900
Honolulu, HI 96813
808-599-9554
baldauf@smlhawaii.com
RESPONDENTS State of Hawaii, David
Y. Ige, John D. Waihe'e III, Na'alehu
Anthony, Lei Kihoi, Robin Danner,
Mahealani Wendt, and Clyde W. Namu'o:
Russell A. Suzuki, Attorney General
Robert Tadao Nakatsuji, Esquire
AGHI - Office of the Hawaii
Attorney General
425 Queen Street
Honolulu, HI 96813
808-568-1180
Robert.T.Nakatsuji@hawaii.gov

This service was effected by depositing three copies of a Petition for Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 24th day of February 2020.

